HHS/OIG - Audit -"Review of Collected Aid to Families with Dependent Children Overpayments,"(A-01-01-02502)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Collected Aid to Families with Dependent Children Overpayments," (A-01-01-02502)
August 24, 2001
Complete
Text of Report is available in PDF format (408 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that States in New England had not returned the Federal share of overpayments that the States
incurred under the previous Aid to Families With Dependent Children (AFDC) program. States were required to return the
Federal share of such overpayments by December 31, 2000. Amounts due from the six New England States totaled $12.4 million.
In response to our review and recommendations four States have subsequently returned $11.2 million. The remaining two States
concurred and have agreed to pay the amount due in the near future.